      Department of Homeland Security





       Marine Accident Reporting, Investigations, and 

       Enforcement in the United States Coast Guard





OIG-13-92                                           May 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                                 Washington, DC 20528 / www.oig.dhs.gov


                                         MAY 23 2013 
 
MEMORANDUM FOR:	             Rear Admiral Stephen P. Metruck 
                             Assistant Commandant for Resources and 
                             Chief Financial Officer 
                             United States Coast Guard 
 
FROM:	                       Anne L. Richards 
                             Assistant Inspector General for Audits 
 
SUBJECT:	                    Marine Accident Reporting, Investigations, and 
                             Enforcement in the United States Coast Guard  
   
Attached for your action is our final report, Marine Accident Reporting, Investigations, 
and Enforcement in the United States Coast Guard.  We incorporated the formal 
comments from the United States Coast Guard in the final report. 
 
Based on information provided in your response to the draft report, we consider 
recommendations 1 through 3 and 5 through 7 open and resolved, and 
recommendation 4 resolved and closed.  As prescribed by the Department of Homeland 
Security Directive 077‐01, Follow‐Up and Resolutions for Office of Inspector General 
Report Recommendations, within 90 days of the date of this memorandum please 
provide a written update for each open recommendation.  Once your office has fully 
implemented the open recommendations, please submit a formal closeout letter to us 
within 30 days so that we may close the recommendations.  The memorandum should 
be accompanied by evidence of completion of agreed‐upon corrective actions.   
 
Consistent with our responsibility under the Inspector General Act, we are providing 
copies of our report to appropriate congressional committees with oversight and 
appropriation responsibility over the Department of Homeland Security.  We will post 
the report on our website for public dissemination.   
 
Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant 
Inspector General for Audits, at (202) 254‐4100.  
 
Attachment 
                                
                                         OFFICE OF INSPECTOR GENERAL
                                               Department of Homeland Security


   Table of Contents
   Executive Summary............................................................................................................. 1

   Background ........................................................................................................................ 2

   Results of Audit ................................................................................................................... 3

              Coast Guard Marine Accident Response Personnel ............................................... 3 

              Corrective Actions ................................................................................................... 5 

              Enforcement ........................................................................................................... 7 

              Recommendations ................................................................................................ 10 

              Management Comments and OIG Analysis .......................................................... 11 


   Appendixes
              Appendix A:          Objectives, Scope, and Methodology ............................................ 14
              Appendix B:          Management Comments to the Draft Report ............................... 16
              Appendix C:          Major Contributors to This Report ................................................ 20
              Appendix D:          Report Distribution ........................................................................ 21

   Abbreviations
              CFR                   Code of Federal Regulations
              CGBI                  Coast Guard Business Intelligence
              CY                    calendar year
              DHS                   Department of Homeland Security
              GAO                   Government Accountability Office
              INCOE                 Investigations National Center of Expertise
              MISLE                 Marine Information for Safety and Law Enforcement
              MSM                   Marine Safety Manual
              MSU                   Marine Safety Unit
              NOV                   Notice of Violation
              OIG                   Office of Inspector General
              USCG                  United States Coast Guard




www.oig.dhs.gov                                                                                                                  OIG-13-92 

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Executive Summary
   The purpose of the investigations program in the United States Coast Guard (USCG) is to
   ensure the safety of mariners and vessel passengers by preventing marine accidents,
   protecting the environment from oil spills, and minimizing property loss and disruptions
   to commerce. The USCG is responsible for identifying, investigating, and enforcing
   reporting requirements related to marine accidents involving commercial vessels. Our
   audit objective was to determine whether the USCG has adequate processes to
   investigate, take corrective actions, and enforce Federal regulations following reported
   marine casualties.

   The USCG does not have adequate processes to investigate, take corrective actions, and
   enforce Federal regulations related to the reporting of marine accidents. These
   conditions exist because the USCG has not developed and retained sufficient personnel,
   established a complete process with dedicated resources to address corrective actions,
   and provided adequate training to personnel on enforcement of marine accident
   reporting. As a result, the USCG may be delayed in identifying the causes of accidents;
   initiating corrective actions; and providing the findings and lessons learned to mariners,
   the public, and other government entities. These conditions may also delay the
   development of new standards, which could prevent future accidents.

   We made seven recommendations to improve the efficiency and effectiveness of
   USCG’s marine accident investigations and enforcement of reporting requirements.
   USCG has concurred with all seven recommendations and is implementing corrective
   actions.




www.oig.dhs.gov                                1                                        OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Background
   USCG is charged with preventing and responding to major marine accidents. Its Marine
   Safety Program is responsible for ensuring the safety of tens of thousands of U.S.
   mariners and millions of passengers on ferries and other vessels. Through the
   prevention of marine accidents, which minimizes property loss and disruptions to
   maritime commerce, the USCG also protects the marine environment from oil spills and
   the introduction of other harmful substances, and strengthens the economy.

   The USCG Marine Safety Program accomplishes these goals through a multifaceted
   approach that includes standards development, compliance enforcement, investigation
   and casualty analysis, and public outreach. The program is responsible for ensuring the
   safe and environmentally sound operation of U.S. flagged vessels and foreign vessels
   operating in U.S. waters. The USCG is the lead Federal agency for operations within the
   nation’s marine transportation system, which consists of 25,000 miles of inland,
   intracoastal, and coastal waterways. According to the Marine Safety Performance Plan,
   the majority of the Nation’s food, clothing, oil, and other raw materials reach
   warehouses, stores, and gas tanks through use of the marine transportation system.

   The USCG reported that it conducted approximately 6,200 incident investigations for
   reportable vessel and pollution marine accidents in 2011, using teams of inspections
   and investigations staff. Inspectors and investigators are required to train extensively,
   ensuring they have the proper knowledge to conduct investigations after accidents
   occur. The USCG has extensive training requirements and qualifications related to
   specific vessel types to ensure its staff has the requisite knowledge to identify accident
   causes and develop corrective actions to prevent accidents in the future.

   This audit was initiated to review both the USCG’s process for accident reporting and its
   personnel who respond to accidents once they are reported. Federal regulations
   mandate that mariners report marine accidents, including those that involve property
   damage of more than $25,000 or injuries requiring treatment beyond first aid. Once an
   accident occurs that meets these requirements, mariners must immediately notify the
   USCG and then follow up with a written report of the accident within 5 days. Mariners
   failing to either immediately notify the USCG or file a written report can be cited with an
   enforcement action including a written warning, a Notice of Violation (NOV), or a Civil
   Penalty ranging up to $35,000. The USCG is responsible for conducting accident
   investigations, identifying corrective actions that can prevent future accidents, and
   enforcing accident reporting requirements when mariners fail to immediately notify the
   USCG of an accident and file a written report.




www.oig.dhs.gov                                 2                                        OIG-13-92

                                     OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security


   Results of Audit
   The USCG does not have adequate processes or sufficient personnel to investigate, take
   corrective actions, and enforce regulations related to the reporting of marine accidents
   as required by Federal regulations and USCG policy. These conditions exist because the
   USCG has not developed and retained sufficient personnel, established a process with
   dedicated resources to address corrective actions, and provided adequate training. As a
   result, the USCG may be delayed in identifying the causes of accidents; initiating
   corrective actions; and providing the findings and lessons learned to mariners, the
   public, and other government entities. These conditions may also delay the
   development of new standards that could prevent future accidents.

              Coast Guard Marine Accident Response Personnel

              The USCG has not developed and retained sufficient staff to perform inspections
              and investigations work in response to marine accidents, and does not have a
              sufficient number of qualified staff to train new inspectors and investigators.1 In
              addition, the Director of Prevention Policy provides personnel with career
              management guidance that suggests they should leave this specialty to improve
              their promotion potential, because of the USCG’s emphasis on personnel
              attaining a wide variety of experience. Personnel indicated that both
              investigations and inspections suffer from investing time and money into training
              people only to have them leave the specialty. The USCG has initiated
              development of a Human Capital Plan to revamp its career guidance and
              improve retention, but it has not yet finalized and implemented this plan. The
              Coast Guard Authorization Act of 2010, as amended, allows promotions by
              specialty in order to encourage retention and continuity to maintain sufficient,
              qualified personnel. However, the USCG has not implemented these provisions
              of the Act.

              In 2011, the USCG established requirements for inspectors and investigators,
              which included formal training, on-the-job training, and work experience to
              ensure that personnel can perform their assigned duties. The USCG’s
              Investigations Division is primarily responsible for conducting investigations into
              marine accidents. However, according to USCG personnel, inspectors are part of
              the two-person team that responds to marine accidents. To determine if staff
              met these requirements, we conducted testing at five sites for inspections
              personnel and six sites for investigations personnel. Although the USCG has
              made some progress in training personnel, the majority of inspectors and


   1
       Qualifications were established for inspectors and investigators, with new guidance issued in October 2011.

www.oig.dhs.gov                                            3                                                OIG-13-92

                                 OFFICE OF INSPECTOR GENERAL
                                     Department of Homeland Security


           investigators did not meet USCG’s requirements for their assigned positions, as
           shown in Figures 1 and 2.2

                 Personnel Meeting United States Coast Guard Qualifications3
           Figure 1. Inspections Personnel        Figure 2. Investigations Personnel

                     Inspections                                      Investigations

                                                   18
                                                 (36%)                                                10
                                                                                                    (33%)




              32
            (64%)                                              20
                                                             (67%)



                        Qualified Inspectors                            Qualified Investigators

                        Unqualified Inspectors                          Unqualified Investigators


           The USCG established an Investigations National Center of Expertise (INCOE) to
           provide crucial, time-sensitive guidance for a variety of complex investigative
           issues. Specifically, INCOE personnel provide on-scene support for major marine
           accidents and assist in certifying the qualifications of local office investigators.
           However, testing of staff qualifications (see Figure 2) revealed that the majority
           of INCOE personnel did not meet the USCG requirements to be assigned as
           investigators. In fact, only two of eight (25 percent) of the investigations staff
           met those requirements.

           According to the USCG, there is a shortage in the number of personnel assigned
           to inspections positions. This shortage will be further compounded when the
           regulations implementing the Coast Guard and Maritime Transportation Act of

   2
     The USCG has different levels of inspectors, including apprentice, journeymen, and advanced
   journeymen marine inspectors. Testing results include journeymen and advanced journeymen, positions
   which require previous inspections experience and qualifications to inspect specific vessels.
   3
     Qualifications were established for inspectors and investigators, with new guidance issued in October
   2011.

www.oig.dhs.gov                                          4                                             OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           2004, as amended, are phased in, which will expand the inspections workload.
           The Act requires the USCG to inspect approximately an additional 5,200
           traditional towing vessels, 1,800 assistance vessels, and other vessels engaged in
           towing.

           Some local USCG office staff maintain that it is difficult to complete inspections
           and investigations with current resources. Without sufficient qualified staff, the
           USCG will not be able to complete future inspections and investigations in a
           timely manner, which may reduce marine safety.

           Corrective Actions

           The USCG investigations and inspections processes do not ensure that all
           investigations and Traveling Inspections corrective actions are addressed and
           implemented. Corrective actions, in the form of safety recommendations, result
           from both investigations of marine casualties and reports by the USCG’s
           traveling inspectors—very experienced inspectors stationed at headquarters
           who visit field units to assist with unique inspections issues. The USCG is unable
           to ensure that all corrective actions are addressed because it does not have
           complete processes and dedicated resources to track, review, and implement
           recommendations for all investigations and Traveling Inspections reports.

           According to USCG personnel in charge of the corrective action process, no
           formal, written instructions or policies exist to ensure recommendations are
           addressed and implemented. Without a complete process, the USCG risks delays
           in implementing safety improvements and preventing future accidents.

           The USCG’s Traveling Inspectors also do not have a process for addressing safety
           recommendations contained in their reports. They visit local offices to provide
           assistance on complex inspections issues, such as inspections of complex vessels.
           Following these visits, they issue reports on their determinations, which include
           safety recommendations for preventing future inspections issues. After
           Traveling Inspectors issue their reports, however, they do not follow up with the
           associated local office or track the implementation of their safety
           recommendations. According to USCG personnel, each office that requests the
           Traveling Inspectors’ assistance is solely responsible for addressing the report’s
           safety recommendations. We notified the USCG about these deficiencies, and it
           already has taken action by implementing a process to ensure recommendations
           are tracked and implemented.




www.oig.dhs.gov                                 5                                        OIG-13-92

                                   OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


           Open Investigations

           The absence of dedicated resources has caused a backlog of more than 6,000
           open investigations, which include safety recommendations that need to be
           addressed. However, safety recommendations cannot be addressed until
           headquarters closes the associated investigations. Therefore, USCG will be
           unable to address these safety recommendations in a timely manner without
           dedicated resources.

           Open Recommendations

           USCG policy describes that the purpose of safety recommendations is to propose
           corrective actions the USCG can implement to prevent unsafe conditions from
           contributing to future casualties. If corrective actions are not addressed and
           implemented in a timely manner, preventable marine accidents may occur,
           resulting in the loss of life or property, injuries, pollution, or unnecessary use of
           USCG resources.

           To assess the USCG’s safety recommendations process, testing was conducted to
           determine whether it had taken any action on safety recommendations from
           investigations initiated in calendar years (CY) 2009–11. Review of a judgmental
           sample of 67 local office safety recommendations indicated that the USCG had
           not initiated implementation on the vast majority of corrective actions (see
           Figure 3). Of the 63 recommendations upon which no action has been taken,
           49 have been awaiting headquarters review for more than a year.

           Figure 3. Safety Recommendations by Local Offices From CYs 2009–11
                           Safety Recommendations by
                         Local Offices From
                                        4 (6%)
                                               CYs 2009–11*

                                                                                  Action Ongoing
                                                                                  No Action Taken



                                      63 (94%)
           *Recommendations with action ongoing include those with statuses indicating the USCG is currently
           addressing them. Recommendations with no action taken include those with statuses indicating they are
           open pending decisions or investigations, were closed by the USCG without action, and have a status of “N/A.”




www.oig.dhs.gov                                             6                                                     OIG-13-92

                                  OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


           In contrast, a review of a judgmental sample of 81 safety recommendations that
           USCG headquarters prepared indicated that it had closed or initiated action on
           the majority of those recommendations, as summarized in Figure 4. The USCG
           has done a better job addressing headquarters safety recommendations because
           the investigations are larger and higher profile.

           Figure 4. Safety Recommendations by Headquarters Offices From CYs 2009–11

                            Safety Recommendations by
                       Headquarters Offices From CYs 2009–11*
                            21 (26%)


                                                                                      Action Ongoing
                                                                                      No Action Taken
                                                                  46 (57%)            Closed
                           14 (17%)



           *Recommendations with action ongoing include those with statuses indicating the USCG is currently
           addressing them. Recommendations with no action taken include those with statuses indicating the USCG
           did not concur and those that have no status. Closed recommendations have been completely addressed.


           Enforcement 


           At the local office level, the USCG does not consistently enforce requirements
           related to reporting marine accidents. According to the Marine Safety Manual
           (MSM), the investigator must provide at least a formal written warning for any
           violation of marine accident reporting requirements. For more serious offenses,
           the penalty increases to a NOV, or a Civil Penalty up to $35,000. Site visits to
           local offices revealed inconsistencies in how investigators handled enforcement
           actions. For example, some offices do not always issue written warnings as
           required, but rather provide verbal warnings that are not documented or
           tracked. Personnel do this because they believe it is more effective to engage
           the mariners in a discussion and educate them on reporting requirements.
           However, the insufficient documentation makes it difficult for USCG to track
           marine accident history for future enforcement. USCG’s MSM indicates that
           enforcement actions do not include verbal warnings.

           Civil Penalties are one tool available to the USCG investigators to ensure
           compliance with statutes and regulations. For all violations, “it is imperative that

www.oig.dhs.gov                                         7                                                  OIG-13-92

                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


              penalties exceed the benefits of noncompliance.”4 For example, the penalty
              assessed on an individual or company that has spilled oil must be high enough to
              encourage the entity to take steps to prevent spills. If the penalty assessed does
              not exceed the economic benefits of noncompliance, there is little incentive for
              future compliance. For violations of marine casualty reporting requirements, the
              USCG Commandant’s Instructions on Civil Penalty Procedures specifically
              indicate that a violation “warrants the initiation of a Civil Penalty and/or other
              remedial action.”

              When the USCG initiates a Civil Penalty, investigators should comply with case
              development guidance issued by the USCG Hearing Office. The Hearing Office is
              responsible for reviewing and making the final determinations on Civil Penalty
              cases. Guidance issued by the Hearing Office stipulates that a Civil Penalty is not
              a punishment and that the amount recommended by the local office should be
              only that which is necessary to achieve compliance and deterrence. When
              investigators assemble a Civil Penalty case, they must provide evidentiary
              support for each element of the charged violation(s), and may include evidence
              of factors that influenced the penalty amount they recommended. A Hearing
              Officer reviews the case to verify allegations; he or she considers local office
              recommendations, but makes a determination on the appropriate penalty
              amount. Hearing Officers consider a number of factors in making a
              determination on the appropriate penalty, including prior violation history,
              extenuating or mitigating circumstances, and the gravity of the offense.

              USCG guidance requires Hearing Officers to provide the local office with
              feedback to facilitate the submission of better cases in the future. However,
              USCG field personnel stated that the Hearing Office does not always provide
              sufficient feedback. Even though the Hearing Office may also provide general
              training on the Civil Penalty process and the role of the Hearing Officer, USCG
              personnel indicated it has done so only once. Providing additional feedback and
              training to investigations personnel may improve the civil penalty process and
              case development.

              When Civil Penalties are used, those penalties are often reduced. Between
              CYs 2009–11, the Hearing Office reviewed 66 Civil Penalty cases, which included
              81 citations alleging violations of marine casualty reporting requirements. Of the
              81 citations reviewed, the Hearing Office found 62 (77 percent) to be proven.

              USCG should provide more training to investigation personnel on the Civil
              Penalties process. The Investigating Officer Course at the USCG Training Center

   4
       Civil Penalty Procedures and Administration, Commandant Instruction 16200. 3A, issued October 16, 1992.

www.oig.dhs.gov                                          8                                               OIG-13-92

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           in Yorktown, Virginia, dedicates only 4 hours of a 4-week course to instruction on
           the Civil Penalty process. The training center has identified enforcement training
           as a particular area of weakness. It stated that the administrative enforcement
           case preparation and investigative process is a vital skill set that USCG personnel
           need to have to ensure that evidence required to support an alleged violation of
           law or regulations is properly supported. Currently, the USCG has no formal or
           informal training process for personnel preparing enforcement cases. As result,
           this training gap has fostered broad inconsistencies in how these cases are
           prepared and has had a negative effect on the ability of USCG personnel to
           exercise investigative and enforcement responsibilities. Therefore, personnel
           have requested that USCG headquarters consider adding a course geared
           specifically toward enforcement.

           Enforcement actions are the USCG’s method of ensuring compliance with marine
           reporting requirements. Without consistent application of the enforcement
           requirements, there is no effective deterrent to mariners’ failure to report
           accidents. As a result, mariners may not be reporting marine accidents to the
           USCG, potentially reducing marine safety. At the same time, many USCG offices
           proactively seek to make mariners aware of reporting requirements through
           Industry Days, which are educational outreach events covering a variety of
           topics. According to one USCG official, one local office has even reached out to
           area hospitals to make them aware of reporting requirements.

           Although the USCG has conducted significant outreach, more needs to be done
           to ensure compliance with accident reporting requirements. It must properly
           enforce regulations outlined in statute to enhance marine safety.

           Conclusion

           The USCG has not developed and retained sufficient staff, ensured all corrective
           actions are addressed and implemented, and needs to enforce requirements
           related to reporting marine accidents consistently. As a result, it may be delayed
           in identifying causes of accidents; initiating corrective actions; and providing the
           findings and lessons learned to mariners, the public, and other government
           entities. These conditions may also delay the development of new standards,
           which could prevent future accidents.




www.oig.dhs.gov                                 9                                         OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendations

           We recommend that the USCG Assistant Commandant for Resources and Chief
           Financial Officer implement the following recommendations to improve the
           efficiency and effectiveness of the USCG’s marine accident investigations and
           enforcement of reporting requirements:

           Recommendation #1:

           Implement an investigations and inspections retention plan to ensure qualified
           personnel are retained within the inspections and investigations specialties.

           Recommendation #2:

           Revise and strengthen its personnel management policies by implementing
           provisions of the 2010 Coast Guard Authorization Act, which allows promotions
           by specialty for marine inspectors and investigators to foster retention and
           continuity.

           Recommendation #3:

           Develop a complete process with sufficient resources to review, track, and
           address all recommendations resulting from investigations reports.

           Recommendation #4:

           Develop a formalized process with sufficient resources to review, track, and
           address all recommendations resulting from Traveling Inspections reports.

           Recommendation #5:

           Provide training and guidance to all investigations personnel on all enforcement
           options.

           Recommendation #6:

           Develop Civil Penalty enforcement training guidelines for preparing and
           supporting Civil Penalty cases for all investigations staff. USCG should consider
           using officers with previous experience in the Hearing Office to complete this
           task.



www.oig.dhs.gov                                10                                         OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Recommendation #7:

           Instruct the Hearing Office to provide feedback in accordance with existing policy.

           Management Comments and OIG Analysis

           The USCG provided formal comments to our report. A copy of the USCG’s
           response in its entirety is included as Appendix B. The USCG also provided
           technical comments and suggested revisions to our report in a separate
           document. We reviewed the technical comments and made changes in the
           report when appropriate.

           The USCG concurred with all seven recommendations, and has formulated plans
           to implement the recommendations contained in the report. A summary of the
           responses and our analysis follows.

           Response to Recommendation #1: Concur. The USCG has already taken action
           and is pursuing additional measures. It is currently developing a Maritime
           Prevention Enhancement Plan that will continue and refine improvement efforts,
           including a consistent focus on retaining prevention professionals. It expects to
           complete this plan in fiscal year 2014.

           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the USCG has completed the
           development of a Maritime Prevention Enhancement Plan that provides a
           consistent focus on retaining prevention professionals.

           Response to Recommendation #2: Concur. The USCG anticipates establishing
           policies which allow for the utilization of Enhanced Status Quo, as authorized in
           the Coast Guard Authorization Act of 2010. The USCG expects to initiate its
           corrective actions during 2014.

           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the USCG has established policies
           which allow for the utilization of Enhanced Status Quo, as authorized in the
           Coast Guard Authorization Act of 2010.

           Response to Recommendation #3: Concur. The USCG will establish national
           policy to track all actions on safety recommendations. In the interim, the USCG
           will develop an aide/tool to assist USCG Headquarters program offices and other

www.oig.dhs.gov                                11                                         OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           units in the tracking of safety recommendations for which they are responsible.
           In the long term, Marine Information for Safety and Law Enforcement (MISLE)
           and Coast Guard Business Intelligence (CGBI) system functionality will be
           developed to provide the means to carry out requirements of the national policy.
           The anticipated implementation date is end of CY 2013 for interim aide tool
           development and CY 2014 for long-term MISLE/CGBI functionality.

           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the safety recommendation process
           has been strengthened based on the interim actions, national policy, and long-
           term plans.

           Response to Recommendation #4: Concur. The USCG has implemented a
           database and process to track, follow up, and address Traveling Marine Inspector
           Report recommendations. The USCG considers Recommendation #4 closed as of
           October 2012.

           OIG Analysis: The USCG’s actions satisfy the intent of the recommendation and
           it has provided documentation to support full implementation of the necessary
           corrective actions. The recommendation is closed.

           Response to Recommendation #5: Concur. The USCG is working to develop an
           Enforcement Course, which will provide education and training on how to
           properly investigate and document NOV and Civil Penalty enforcement actions.
           This course will include violation selection and analysis, casework write-up, and
           documentation in the MISLE database. The anticipated implementation date is
           fiscal year 2014, pending the availability of training funding.

           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the enforcement course has been
           developed and all investigations staff have received the training.

           Response to Recommendation #6: Concur. The USCG will ensure the training
           guidelines for preparing and documenting a Civil Penalty are included in the
           curriculum developed for the Enforcement Course. Course development
           includes soliciting recommendations from accomplished performers in the field
           to include within the curriculum. The anticipated implementation date is fiscal
           year 2014.



www.oig.dhs.gov                                12                                       OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the enforcement training guide and
           course has been developed and all investigations staff have received the training.

           Response to Recommendation #7: Concur. The USCG’s Judge Advocate General
           will instruct Hearing Officers to provide feedback in accordance with Chapter 2.C
           of Commandant Instruction MI6200.5A, consistent with their assigned duties.
           The anticipated implementation date is fiscal year 2014.

           OIG Analysis: The USCG’s response addresses the intent of our recommendation.
           The recommendation will remain open and resolved until we can verify, through
           review of supporting documentation, that the Judge Advocate General has
           instituted a new instruction requiring feedback to the field on cases reviewed by
           the Hearing Office.




www.oig.dhs.gov                                13                                       OIG-13-92

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   We conducted this audit to determine whether the USCG has adequate processes for
   investigating and taking corrective actions following reported marine casualties, and for
   enforcement of reporting requirements outlined in 46 CFR 4.05-1 and 46 CFR 4.05-10.
   We conducted site visits to—

    Coast Guard Headquarters                        Sector Puget Sound – Seattle, WA
    Coast Guard Hearing Office – Arlington, VA      MSU Morgan City – Morgan City, LA
    Sector Boston – Boston, MA                      MSU Chicago – Chicago, IL
    Sector Delaware Bay – Philadelphia, PA          Marine Safety Detachment Peoria –
                                                    Peoria, IL
    Sector Houston/Galveston – Houston, TX          INCOE in New Orleans – New Orleans, LA
    Sector New Orleans – New Orleans, LA            National Mariners Association –
                                                    New Orleans, LA
    Sector Upper Mississippi River –                Three law enforcement agencies –
    St. Louis, MO                                   Boston, MA
    Sector San Francisco – San Francisco, CA        Two marine industry companies – Boston,
                                                    MA

   We based our site visit selections on marine accident investigation numbers reported in
   the USCG system, and identified the locations with the largest number of accidents and
   sites with varying areas of responsibility and waterways. At these site visits, we
   interviewed employees and officials, made direct observations, and reviewed applicable
   documents. We also interviewed officials at USCG’s headquarters in Washington, DC.

   We performed testing to verify whether marine inspectors and marine investigators had
   the qualifications, training, and experience required by the USCG to conduct
   investigations. We identified the USCG’s current Marine Inspector Performance
   Qualification Standards and Marine Investigations Standards, and conducted testing of
   all personnel assigned to either a domestic inspector or investigation position at the
   time of our visit to determine if staff met the standards for their assigned position.



www.oig.dhs.gov                                14                                      OIG-13-92

                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   We conducted this testing at the six sites we visited: Sector Delaware Bay, Sector
   Houston/Galveston, Sector Puget Sound, Sector San Francisco, Marine Safety Unit
   Chicago, and the National Center of Expertise.

   We performed testing to determine if USCG was reviewing, addressing, and tracking
   corrective actions identified in investigation reports. We reviewed a judgmental sample
   of corrective actions identified by the field and corrective actions identified by USCG
   headquarters from CYs 2009–11. We also performed testing to determine if the field
   was enforcing accident reporting requirements and if the Hearing Office was upholding
   field enforcement actions. We reviewed all enforcement actions from CYs 2009–11.

   We conducted this performance audit between January and December 2012 pursuant
   to the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                               15                                        OIG-13-92

                                       OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                  U,S, Department of                 Commandant                           2100 Scocond Slrect, S.W.• Stop 7245
                  Hom.'and Security                  United SUtes Cout GIWd               Wuhington. DC 20593
                                                                                          SurrSymbol:CG-823
                                                                                          Phone: (202) 312·3533
              Unttad States                                                               Fax: (202) 372·23 II
              Coast Guard
                                                                                          7501

                                                                                         APR 23 2013
              ME~e~
              From:       S. P. Metruek, RDML                                 Reply to Audit Manager
                          COMDT (CG-S)                                        Attn of:    Mark Kulwicki
                                                                                          (202) 372-3533
              To:         A, L. Richards
                          Assistant Inspector General for Audits
                          Department of Homeland Security (DHS)

              Subj:       DHS OIG DRAFT REPORT: "MARINE ACCIDENT REPORTING,
                          lNVESTlGATlONS, AND ENFORCEMENT IN THE UNITED STATES COAST
                          GUARD"

              Ref:       (a) OIG P'ojeet No . 12-027-AUD-USCG, dated Ma.ch 21 , 2013

              I. This memorandum transmits the Coast Guard's response to the findings and recommendations
              identified in reference (a).

              2. The Coast Guard concurs with the report's recommendations.

              3. If you have any questions, my point of contact is Mr. Mark Kulwicki who can be reached at
              202-372-3533.

                                                                #

              Enelos"",: (1) USCG Response




www.oig.dhs.gov                                               16                                                                 OIG-13-92

                                     OFFICE OF INSPECTOR GENERAL
                                          Department of Homeland Security




              UNITED STATES COAST GUARD RESPONSE ON DHS OlG DRAFT REPORT OIG
              PROJECT NO. 12-027-AUD-USCG - MARINE ACCIDENT REPORTING,
              INVESTIGATIONS, AND ENFORCEMENT IN THE UNITED STATES COAST
              GUARD

                               RECOMMENDATION AND USCG RESPONSE UPDATES

              Recommendation #1: Implement an investigations and inspections retention plan 10 ensure
              qualified personnel are retained within the inspections and investigations specialties.

              USCG Response: Concur with the intent of this recommendation - keeping in mind the Coast
              Guard has already taken action and has the intention of pursuing additional measures. The Coast
              Guard implemented a plan to improve competency and capacity in marine inspections and
              investigations - including specific measures to retain personnel in these fields. The Coast Guard
              Marine Safety Enhancement Plan (MSEP) issued in 2009 and other action taken since then
              improve retention in inspection and investigations billets by: establishing apprentice, journeyman
              and master journeyman tours; providing for back-to--back field tours for officers assigned as
              inspectors and investigators; requiring investigators to first be qualified inspectors; increasing the
              number of civilian inspector and investigators in the workforce; and enhancing the inspections
              and investigations training facilities and curriculum. The Coast Guard also initiated a prevention
              curriculum at the U.S. Coast Guard Academy to bring new officers into the program. and issued
              career guides that assist personnel in planning their careers, as well as showing junior officers
              that repeated tours in inspections and investigation may lead to positions of progressively greater
              responsibility within the program.

              The Coast Guard is currently developing a Maritime Prevention Enhancement Plan (MPEP) that
              will continue and refine our improvement efforts, including a consistent focus on retaining
              prevention professionals.

              Note that the Coast Guard has closed out the recommendations associated with OIG Report :
              Revisions to the Marine Safety Performance Plan and Annual Update Supplement will Facilitate
              Improved Management (OIG-I 1-22).

              RecommendatioD #2: Revise and strengthen its personnel management policies by
              implemen/in8prollisions ofthe 2010 Coast Guard Authorizalion Act, which allows promotions
              by specialty for marine inspectors and irwestigalors to foster retention and continuity.

              USCG Response: Concur. The Coast Guard anticipates establishing policies which allow for
              the utilization of Enhanced Status Quo (ESQ), as authorized in the Coast Guard AUlhorizalion
              Act 012010.

              In order to utilize ESQ. several actions are being taken:
              (a) Identi fy each position with a talent need. The initial designation has been completed. and the
              positions are under continual review. This approach establishes the requirements which each
              talent area, or specialty, will be evaluated to determine the annual need for ESQ.
              (b) Identify the existing talent available. Approximately 3,900 active duty and 550 reserve
              officers were assigned officer specialty codes in the summer of2012. This list requires
              validation from the officer corps, which will begin when the Officer Specialty Management
              System policy is published.

                                                                                            Enclosure (1)




www.oig.dhs.gov                                                17                                                      OIG-13-92

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              (c) Establish a means for new officers to earn a specialty designation. Policy and procedures for
              assigning officer specialty codes are pending approval. Specialty Program Managers have
              established and documented criteria for earning officer specialty codes.
              (d) Promulgate Polices. Currently. the Officer Specialty Management System Manual is pending
              approval. The specific selection modification policy is under development.

              Once these initiatives are fully implemented. then the Commandant will determine which
              specialties, if any, to apply the retention capability permitted by ESQ on an annual basis.

              As provided in the Coast Guard Authorization Act of2010, ESQ is not specific to the Marine
              Accident lnvestigation/Marine Inspector workforce. Needs within this workforce must be
              evaluated against all workforce requirements of the Coast Guard.

              The anticipated implementation date is dependent upon successfully validating assigrunent of
              specialty codes for individual officers. OPM will begin sampling data during Promotion Year
              2014 to build confidence in data accuracy. Once a reasonable confidence level is achieved,
              implementation will proceed.

              Recommendation #3: Develop a complete process with sufficient resources to review, track,
              and address all recommendations resilitingfrom investigations reports.

              USCG Response: Concur. The Coast Guard will establish national policy to track aU actions on
              safety recommendations. In the interim, the Coast Guard will develop an aide/tool to assist
              USCG Headquarters program offices andlor other units in the tracking of safety
              recommendations for which they are responsible. In the long-tenn, Marine Infonnation for
              Safety and Law Enforcement (MISLE) and Coast Guard Business Intelligence (CGBI) system
              functionality will be developed to provide the means to carry out requirements of the national
              policy. The anticipated implementation date is end of calendar year 2013 for interim aide/tool
              development and calendar year 2014 for long tenn functionality in MISLElCGBI.

              Recomm endation #4: Develop aformalized process with sufficient resources to review, track,
              and address all recommendations resuJtingjrom Traveling Inspections reports.

              USCG Response: Concur. The Coast Guard has implemented a database and process to track,
              follow-up, and address Traveling Marine Inspector Report recommendations. The Coast Guard
              considers Recommendation #4 closed as of October 2012.

              Recommendation #5: Provide training and gUidance to all investigations personnel on all
              enforcement options.

              USCG Response: Concur. The Coast Guard is working to develop an Enforcement Course
              which would provide education and training on how to properly investigate and document all
              Notice of Violation and Civil Penalty enforcement actions. This course would include violation
              selection and analysis, case work write-up, and documentation in MISLE database. The
              anticipated implementation date is fiscal year 2014. pending availability of training funding.

              Recommendation #6: Develop Civil Penalty enforcement training guidelinesfor preparing and
              supporting Civil Penalty casesfor all investigations staff USCG should consider using officers
              with previous experience in the Hearing Office to complete this task.

                                                         Page 2 of3




www.oig.dhs.gov                                              18                                                   OIG-13-92

                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




              USCG Response: Concur. The Coast Guard will ensure the training guidelines for preparing
              and documenting a Civil Penalty are included in the curriculum developed for the Enforcement
              Course. Development of the course includes soliciting recommendations from accomplished
              performers in the field to include within the curriculum. The anticipated implementation date is
              fiscal year 2014.

              Recommendation 117: Inslt'ucllhe Hearing Office 10 provide feedback in accordance with
              existing policy.

              USCG Response: Concur. The Coast Guard 's Judge Advocate General will instruct Hearing
              Officers to provide feedback in accordance with Chapter 2.C ofCOMDTINST M16200.5A.
              consistent with their assigned duties. The anticipated implementation date is fiscal year 2014.




                                                        Page 3 of3




www.oig.dhs.gov                                              19                                                  OIG-13-92

                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix C
   Major Contributors to This Report
   Brooke Bebow, Audit Director
   Stephanie Christian, Audit Manager
   Patricia Benson, Program Analyst
   Dianne Leyva, Program Analyst
   Philip Emswiler, Program Analyst
   Carolyn Floyd, Auditor
   Emily Pedersen, Program Analyst
   Kevin Dolloson, Communications Analyst
   Sean Pettersen, Independent Referencer




www.oig.dhs.gov                             20                  OIG-13-92

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix D
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   USCG Component Liaison
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  21                        OIG-13-92

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
